Sa
I

own (CQCKLE

. E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax; (402) 342-4850
No. 19-123
SHARONELL FULTON, et al.,
Petitioners,
ve
CITY OF PHILADELPHIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF GENERATION
JUSTICE AS AMICUS CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
7938 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of June, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL NOTARY-State of Mebraska
RENEE J, GOSS
My Comm. Exp. September 6, 2023

    

thes Oudiw-h, Ghly

Affiant

   

Notary Public

 
